Department of Homeland Security
   Ofﬁce of Inspector General

               U.S. Immigration and Customs 
 

            Enforcement’s Management Letter for 
 

            FY 2010 DHS Consolidated Financial 
 

                      Statements Audit
 





OIG-11-64                                         March 2011
                                                           Office ofInspector General

                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528




                                                           Homeland
                                                           Security
                                          MAR 28 2011

                                            Preface

The Department of Romeland Security (DRS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the U.S. Immigration and Customs Enforcement's Management
Letter for FY 2010 DRS Consolidated Financial Statements Audit. It contains
observations related to internal control that were not required to be reported in the
financial statements audit report. The independent public accounting firm KPMG LLP
(KPMG) performed the integrated audit of DRS' FY 2010 financial statements and
internal control over financial reporting and prepared this management letter. KPMG is
responsible for the attached management letter dated March 2,2011, and the conclusions
expressed in it. We do not express opinions on DRS' financial statements or internal
control, or provide conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.



                                        Anne L. Richards
                                        Assistant Inspector General for Audits
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036


March 2, 2011


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security U.S. Immigration and Customs Enforcement
Washington, DC


Ladies and Gentlemen:

We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS
or Department) as of September 30, 2010 and the related statement of custodial activity for the
year then ended (referred to herein as “financial statements”). We were also engaged to examine
the Department’s internal control over financial reporting of the balance sheet as of September 30,
2010, and the statement of custodial activity for the year then ended. We were not engaged to
audit the accompanying statements of net cost, changes in net position, and budgetary resources
for the year ended September 30, 2010 (referred to herein as other fiscal year (FY) 2010 financial
statements), or to examine internal control over financial reporting over the other FY 2010
financial statements.

Because of matters discussed in our Independent Auditors’ Report, dated November 12, 2010, the
scope of our work was not sufficient to enable us to express, and we did not express, an opinion
on the FY 2010 financial statements and we were unable to perform procedures necessary to form
an opinion on DHS’ internal control over financial reporting of the balance sheet as of September
30, 2010 and the related statement of custodial activity for the year then ended. The U.S.
Immigration and Customs Enforcement (ICE) is a component of DHS. We noted certain matters
involving internal control and other operational matters, related to ICE that are summarized in the
Table of Financial Management Comments on the following pages, and presented for your
consideration in Section I of this letter. These comments and recommendations, all of which have
been discussed with the appropriate members of management, are intended to improve internal
control or result in other operating efficiencies. These comments are in addition to the significant
deficiencies presented in our Independent Auditors’ Report, dated November 12, 2010, included
in the FY 2010 DHS Annual Financial Report. A description of each internal control finding, not
related to information technology, and its disposition as either a significant deficiency or a
financial management comment is provided in Appendix A. Our findings related to information
technology systems security have been presented in a separate letter to the Office of Inspector
General and the ICE Chief Financial Officer and Chief Information Officer.

As described above, the scope of our work was not sufficient to express an opinion on the balance
sheet as of September 30, 2010 or the statement of custodial activity of DHS for the year then
ended, and we were not engaged to audit the statements of net cost, changes in net position, and
budgetary resources for the year ended September 30, 2010. Accordingly, other internal control
matters may have been identified and reported had we been able to perform all procedures
necessary to express an opinion on the FY 2010 financial statements and had we been engaged to
audit the other FY 2010 financial statements. We aim, however, to use our knowledge of DHS’
organization gained during our work to make comments and suggestions that we hope will be
useful to you.


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
ICE’s written response to our comments and recommendations has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.

We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of DHS’ and ICE’s management, the DHS
Office of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and
the Government Accountability Office, and is not intended to be and should not be used by
anyone other than these specified parties.

Very truly yours,
                              U.S. Immigration and Customs Enforcement
                              Table of Financial Management Comments
                                         September 30, 2010

               TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Comment
Reference   Subject                                                                                 Page(s)

FMC 10-01   Inadequate Internal Controls over Leasehold Improvement Projects                           2
FMC 10-02   Inadequate Internal Controls over Internal Use Software Projects                           2
FMC 10-03   Ineffective Controls over the Leave Audit Process                                         2-3
FMC 10-04   Ineffective Review Controls over the Preparation and Submission of the Contingent          3
            Legal Liabilities Documentation
FMC 10-05   Ineffective Internal Controls over the SF-224 Process                                      3
FMC 10-06   Untimely Deposit of Immigration Bonds                                                     3-4
FMC 10-07   Untimely De-obligation of Undelivered Orders (UDOs) Balances                               4
FMC 10-08   Subject to Availability of Funding Agreements are not Obligated in the Federal             4
            Financial Management System (FFMS) at the Outset of the Agreement
FMC 10-09   Lack of Accrual of Capitalized Costs Incurred at Year-end for Software and Leasehold       4
            Improvement Projects
FMC 10-10   Lack of Comparison of Accounts Payable Estimate to Actual Amounts                          5
FMC 10-11   FFMS has the Ability to Make Duplicate Payments                                            5
FMC 10-12   Intragovernmental Payment and Collection (IPAC) Payments are Made Prior to the             5
            Establishment of an Obligation in FFMS
FMC 10-13   Inability to Support UDO Balances at Year-End                                              6




                                             APPENDIX
Appendix    Subject                                                                                Page(s)

    A       Crosswalk – Financial Management Comments to Active NFRs                                    7
    B       Status of Prior Year NFRs                                                                  8-9
    C       Management Response                                                                        10




                                                     1
 

                                                                                                 Section I
                              U.S. Immigration and Customs Enforcement
                                   Financial Management Comments
                                         September 30, 2010


FMC 10-01 – Inadequate Internal Controls over Leasehold Improvement Projects (NFR No. ICE
10-01)

       We identified several discrepancies related to property, plant and equipment (PP&E) balances
       during our review of analytical relationships in the March 31, 2010 financial statements. In
       addition, in fiscal year (FY) 2010, U.S. Immigration and Customs Enforcement (ICE) improved
       its process for capturing leasehold improvements from Office of Acquisition Management
       (OAM) Real Property Project Managers. As a result of the analytical review and the improved
       process related to leasehold improvements, the Office of Financial Management (OFM) recorded
       adjustments totaling approximately $27 million, for FY 2009 and FY 2010, to correct for
       misclassifications between capitalized and non-capitalized leasehold improvements.

       Recommendations:
       We recommend that ICE:
       �	 Develop comprehensive policies and procedures to assist in the appropriate tracking of
          leasehold improvement projects.
       �	 Ensure that request worksheets, documents, and responses to OFM data calls for information
          on leasehold improvement projects are received by the due date.
       �	 Ensure operating procedures and guidance includes appropriate measures to ensure that items
          are properly classified as in-use or in-progress.

FMC 10-02 – Inadequate Internal Controls over Internal Use Software Projects (NFR No. ICE 10­
02)

       KPMG identified several discrepancies related to PP&E balances during its review of analytical
       relationships in the March 31, 2010 financial statements. In addition, in FY 2010, ICE enhanced
       its process for validating software deployment dates by distributing a data call for estimated costs
       and completion dates for Software Development Projects. This data call identified items, totaling
       $65 million, for FY 2009 and FY 2010 that were misclassified as in-service rather than in-
       development, or vice versa.

       Recommendation:
       We recommend that ICE develop comprehensive policies and procedures to assist in the
       appropriate tracking of internal use software projects and to ensure that all pertinent ICE offices
       work collaboratively to resolve the control issues identified.

FMC 10-03 – Ineffective Controls over the Leave Audit Process (NFR No. ICE 10-03)

       Each pay period, the United States Department of Agriculture (USDA) National Finance Center
       (NFC) processes payroll data which is submitted by ICE employees via WebTA. As part of
       payroll processing, NFC generates a Leave Error Report (LER) which identifies discrepancies
       between the leave balance per NFC’s records and the leave balance per WebTA. The timekeepers
       for these employees are responsible for resolving leave errors within two pay periods. During
       interim testwork over a sample of 45 items, we identified 6 leave errors which were not
       researched and resolved in a timely manner.




                                                    2

                                                                                             Section I
                            U.S. Immigration and Customs Enforcement
                                 Financial Management Comments
                                       September 30, 2010


       Recommendations:
       We recommend that the ICE Office of Human Capital (OHC):
       �	 Develop a system that ensures all timekeepers identify and correct leave errors in a timely
          manner.
       �	 Implement a time and attendance policy and operating procedure that establishes
          responsibilities and internal control requirements related to time and attendance
          discrepancies.

FMC 10-04 – Ineffective Review Controls over the Preparation and Submission of the Contingent
Legal Liabilities Documentation (NFR No. ICE 10-04)

       We reviewed supporting contingent legal liability documentation as of June 30, 2010 and noted
       that the Contingent Liability Disclosure Memorandum did not contain signatures from “the
       highest ranking Financial Management Official, or his/her designee, and the highest ranking
       Component Legal Counsel, or his/her designee” as required by the DHS Component
       Requirements Guide for Financial Reporting. In addition, DHS OFM noted that ICE’s June legal
       liability reporting received a low rating on the DHS quarterly scorecard due to the need for
       extensive follow-up by DHS OFM and numerous changes to ICE’s draft submission based on
       DHS OFM review.

      Recommendation:
      We recommend that ICE reevaluate and update its current policies and procedures to ensure
      appropriate collaboration between offices and compliance with DHS policies and procedures.

FMC 10-05 – Ineffective Internal Controls over the SF-224 Process (NFR No. ICE 10-05)

       During interim testwork, we noted that the Payroll Accounting and Reporting SF-224s for ICE
       and customer entities, National Protection and Programs Directorate (NPPD) and Science and
       Technology Directorate (S&T), were not properly signed by a supervisor at the Dallas Finance
       Center (DFC) prior to submission of the SF-224 to Treasury.

      Recommendation:
      We recommend that ICE adheres to existing policies and procedures surrounding the SF-224
      approval, sign-off and submission, including payroll submissions.

FMC 10-06 – Untimely Deposit of Immigration Bonds (NFR No. ICE 10-06)

       During our FY 2010 interim testwork over open bonds payable, we noted 3 out of 45 immigration
       bonds were not deposited timely according to the Treasury Financial Manual. The 3 bonds were
       for amounts of $5,000 or greater and were not deposited within 24 hours of receipt by the field
       office.

       Recommendation:
       We recommend that ICE provide additional guidance to all field offices to further emphasize the
       depositing requirements set by the Treasury Financial Manual, Title 6, Section 8030.20 that
       requires deposits totaling $5,000 or more to be deposited on the same day received prior to




                                                 3
 

                                                                                                  Section I
                              U.S. Immigration and Customs Enforcement
                                   Financial Management Comments
                                         September 30, 2010


       depository cutoff time. Funds received too late in the day to meet the deposit cutoff time must be
       deposited the following day.

FMC 10-07 – Untimely De-obligation of Undelivered Orders (UDO) Balances (NFR No. ICE 10-07)

       KPMG judgmentally selected a sample of 45 items from the population of UDOs as of May 31,
       2010 and identified 18 UDOs that were not valid as of May 31, 2010 and should have previously
       been de-obligated.

      Recommendations:
      We recommend that ICE:
      �	 Continue to manage the validation and verification review process to ensure field personnel
          are following the established procedures to ensure invalid UDOs are de-obligated in a timely
          manner.
      �	 Ensure sufficient personnel are dedicated to the timely review of open contracts for close-out
          determinations.

FMC 10-08 – Subject to Availability of Funding Agreements are not Obligated in Federal Financial
Management System (FFMS) at the Outset of the Agreement (NFR No. ICE 10-08)

       During our FY 2010 interim testwork, we noted that 16 out of 57 ICE disbursement samples,
       totaling $23,441,625, were related to obligations which were created in FFMS after the costs
       related to the invoice were incurred. In some cases, additional funding was added to the
       obligation after the receipt of the invoice because the funding in FFMS was not sufficient to pay
       the invoice.

       Recommendation:
       We recommend that ICE Enforcement and Removal Operations (ERO) coordinate with ICE
       Office of Budget and Program Performance (OBPP) and field offices to ensure funds are
       available to obligate at the beginning of the contract by ensuring the quarterly allocation of funds.

FMC 10-09 – Lack of Accrual of Capitalized Costs Incurred at Year-end for Software and
Leasehold Improvement Projects (NFR No. ICE 10-09)

       During our testwork over capitalized property additions as of June 30, 2010, we determined that
       property costs were capitalized in FY 2010 related to one leasehold improvement contract and
       three internal-use software-in-development projects where goods were received in FY 2009. We
       noted that ICE reported capitalized costs additions in FY 2010 of $2.4 million for services on
       software and leasehold projects which were received in FY 2009 and did not accrue for $2
       million of services received prior to the June 30, 2010 financial reporting date.

       Recommendation:
       We recommend that ICE develop a process to accrue for capitalized costs incurred at period end
       related to software and leasehold improvement projects.




                                                    4
 

                                                                                              Section I
                             U.S. Immigration and Customs Enforcement
                                  Financial Management Comments
                                        September 30, 2010


FMC 10-10 – Lack of Comparison of Accounts Payable Estimate to Actual Amounts (NFR No. ICE
10-10)

       We noted that the accounts payable accrual estimate methodology did not contain a provision to
       review the estimate against actual subsequent disbursement amounts. The review of subsequent
       disbursements was performed on a sample basis for all strata of disbursements.

       The accuracy of the accrual cannot be verified because the methodology was sample based and
       did not include a provision to compare the estimate to actual amounts within a range which could
       be deemed insignificant.

       Recommendation:
      We recommend that ICE perform an accounts payable estimation look-back using actual
      disbursements made on a quarterly basis to verify whether the accrual is in the acceptable range
      for accuracy.

FMC 10-11 – FFMS has the Ability to Make Duplicate Payments (NFR No. ICE 10-11)

       ICE had not implemented adequate procedures to address the risk of duplicate payments in
       FFMS.

       In January, 2010 a glitch in FFMS Release 2.13 caused duplicate payment amounts to be reported
       in FFMS. The glitch was identified and corrected through a patch in the same month, and all
       duplicate payment funds were recalled and refunded in FFMS. Throughout the fiscal year, the
       DFC reviews disbursement data in FFMS to identify duplicate payments, which indicated that
       there were additional duplicate payments of less than $1 million in FY 2010.

       Recommendation:
       We recommend that ICE management implement additional controls to prevent the processing of
       duplicate payments. Individuals with the responsibility to process payments should adhere to
       existing policies and procedures to ensure that all disbursements are processed correctly.

FMC 10-12 – Intragovernmental Payment and Collection (IPAC) Payments are Made Prior to the
Establishment of an Obligation in FFMS (NFR No. ICE 10-12)

       During our year-end test work over IPAC disbursements we determined that 1 out of 10 sample
       items were paid prior to the establishment of an obligation in FFMS.

      Recommendations:
      We recommend that ICE:
      �	 Re-communicate to program offices the requirement to enter an obligation in FFMS prior to
         incurring costs.
      �	 Develop and implement controls to monitor the execution of policies and procedures related
         to IPAC transactions.




                                                  5
 

                                                                                            Section I
                            U.S. Immigration and Customs Enforcement
                                 Financial Management Comments
                                       September 30, 2010


FMC 10-13 – Inability to Support UDO Balances at Year-End (NFR No. ICE 10-13)

       We selected a sample of UDO balances as of August 31, 2010 and requested supporting
       documentation including obligating documents and invoices. KPMG reviewed the initial
       documentation provided and submitted follow-up questions to ICE management on October 15,
       2010. As of October 26, 2010, the “completion of fieldwork” date for the audit, ICE was unable
       to provide all documentation necessary to complete the testwork.

       Recommendation:
       We recommend that ICE implement procedures to ensure supporting documentation for key
       prepared by client (PBC) items is provided to central points of contact and validated prior to
       delivery to KPMG to ensure the completeness of the information.




                                                 6
 

                                                                                                                   Appendix A
                                   U.S. Immigration and Customs Enforcement
                              Crosswalk - Financial Management Comments to NFRs
                                               September 30, 2010


                                                                                                     Disposition1
                                                                                                    IAR              FMC
        NFR No.                                    Description                               MW       SD     NC       No.
                      Inadequate Internal Controls Over Tracking Leasehold
         10-01                                                                                                       10-01
                      Improvement Projects
                      Inadequate Internal Controls Over Tracking Internal Use Software
         10-02                                                                                                       10-02
                      (IUS) Projects
         10-03        Ineffective Internal Controls Over Leave Audit Process                                         10-03
                      Ineffective Review Controls Over the Preparation and Submission
         10-04                                                                                                       10-04
                      of the Contingent Legal Liabilities Documentation
         10-05        Ineffective Internal Controls Over SF-224 Process                                              10-05
         10-06        Untimely Deposit of Immigration Bonds                                                          10-06
         10-07        Untimely De-Obligation of Undelivered Orders (UDO) Balances                                    10-07
                      Subject to Availability of Funding Agreements are not Obligated in
         10-08        the Federal Financial Management System (FFMS) at the Outset of                                10-08
                      Agreement
                      Lack of Accrual of Capitalized Costs Incurred at Year-end for
         10-09                                                                                                       10-09
                      Software and Leasehold Improvement Projects
                      Lack of Comparison of Accounts Payable Estimate to Actual
         10-10                                                                                                       10-10
                      Amounts
         10-11        FFMS has the Ability to Make Duplicate Payments                                                10-11
                      Intragovernmental Payment and Collection (IPAC) Payments are
         10-12                                                                                                       10-12
                      Made Prior to the Establishment of an Obligation in FFMS
         10-13        Inability to Support UDO Balances at Year-End                                                  10-13

         10-14        FFMIA Compliance                                                                         J

1
  Disposition Legend:
IAR	 	      Independent Auditors’ Report dated November 12, 2010
FMC	 	 Financial Management Comment
MW	 	       Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	         Contributed to a Significant Deficiency at the Department level when combined with the results of all other
           components
NC	         Contributed to Noncompliance with laws, regulations, contracts, and grant agreements at the Department level when
           combined with the results of all other components
NFR	 	      Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A	 	      Financial Management and Reporting
B	 	      Information Technology Controls and System Functionality
C	 	      Fund Balance with Treasury
D	 	      Property, Plant, and Equipment
E	 	      Actuarial and Other Liabilities
F	 	      Budgetary Accounting
G	 	      Other Entity-Level Controls
H	 	      Custodial Revenue and Drawback
I	 	      Federal Managers’ Financial Integrity Act of 1982 (FMFIA), and Laws and Regulations Supporting OMB Circular
          No. A-50, Audit Followup, as revised
J	 	      Federal Financial Management Improvement Act of 1996 (FFMIA)
K	 	      Single Audit Act Amendments of 1996
L	 	      Chief Financial Officers Act of 1990 (CFO Act)
M	 	      Antideficiency Act, as amended (ADA)
N	 	      Government Performance and Results Act of 1993 (GPRA)




                                                              7
 

                                                                                                   Appendix B
                            U.S. Immigration and Customs Enforcement
                                    Status of Prior Year NFRs
                                       September 30, 2010


                                                                                        Disposition1
                                                                                                Repeat
NFR No.                               Description                                Closed2
                                                                                           (2010 NFR No.)
          Untimely Execution of Reimbursable Agreements and Security Work
          Authorizations (SWAs) with Other Governmental Entities when U.S.
 09-01                                                                             X
          Immigration and Customs Enforcement (ICE) is Performing the
          Services
 09-02    Number not used                                                              Not applicable
 09-03    Number not used                                                              Not applicable
 09-04    Obligations are Not Being Recorded in FFMS in a Timely Manner            X
 09-05    Number not used                                                              Not applicable
          Discrepancies with the Leave Balances Between the National Finance
 09-06    Center Records and WebTA Reports are Not Being Researched and                       ICE 10-03
          Resolved Timely
          Lack of Procedures to Verify the Receipt and Acceptance of Goods or
 09-07                                                                             X
          Services for IPAC Transactions
 09-08    Number not used                                                              Not applicable
 09-09    Number not used                                                              Not applicable
 09-10    Number not used                                                              Not applicable
 09-11    Number not used                                                              Not applicable
 09-12    Number not used                                                              Not applicable
 09-13    Number not used                                                              Not applicable
 09-14    Number not used                                                              Not applicable
 09-15    Number not used                                                              Not applicable
 09-16    Number not used                                                              Not applicable
 09-17    Number not used                                                              Not applicable
          Inadequacy/Ineffectiveness of Internal Controls over the Preparation
 09-18                                                                                        ICE 10-04
          and Review of the Pending/Threatened Litigation Against ICE
 09-19    Number not used                                                              Not applicable
          Accounts Payable Transactions are Not Being Recorded in FFMS
 09-20                                                                             X
          Timely
          Aged Obligations are Not Timely Reviewed to Ensure the Validity and
 09-21                                                                                        ICE 10-07
          Accuracy of the UDO Balance
 09-22    Inadequate and/or Inconsistent Review of Personnel Actions               X
          Untimely Resolution of Differences Identified on the Statement of
 09-23                                                                             X
          Differences
 09-24    Noncompliance with Human Resources Laws and Regulations                  X
 09-25    Duplicate Payment Transactions were Processed in FFMS                               ICE 10-11
 09-26    Processing of Improperly Authorized Reclassification Requests            X
          Certain Office of Detention and Removal Operations (DRO)
 09-27                                                                             X
          Disbursements Should Have Been Allocated to Other Funding Sources
          Noncompliance with the United States Standard General Ledger –
 09-28                                                                             X
          Capitalization Costs are Not Tracked on a Transaction Level
 09-29    Number not used                                                              Not applicable
 09-30    Number not used                                                              Not applicable
 09-31    Disbursements are Being Charged to an Improper Sub-Object Class          X
          IPAC Payments are Being Made Prior to an Obligation Being Set Up in
 09-32                                                                                        ICE 10-12
          FFMS




                                                    8
 

                                                                                                      Appendix B
                                   U.S. Immigration and Customs Enforcement
                                           Status of Prior Year NFRs
                                              September 30, 2010


                                                                                             Disposition1
                                                                                                     Repeat
      NFR No.                                 Description                             Closed2
                                                                                                (2010 NFR No.)
       09-33     Number not used                                                            Not applicable
       09-34     Insufficient Internal Controls over IUS Recorded in Previous Years               ICE 10-02
                 Lack of Supporting Documentation for the Distribution of the SF­
       09-35                                                                            X
                 132/SF-133 Reconciliations to the Budget Offices

1
  KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and
for the year ended September 30, 2010, and was not engaged to perform an audit over the statement of net cost,
statement of changes in net position, and statement of budgetary resources for the year ended September 30, 2010.
In addition, we were engaged to follow-up on the status of all active NFRs that supported significant deficiencies
reported in KPMG’s Independent Auditors’ Report dated November 13, 2009.
2
 NFRs were closed either through remediation of the findings or that we were not engaged to follow up on active
NFRs that did not support significant deficiencies reported in KPMG’s Independent Auditors’ Report dated
November 13, 2009.




                                                            9
 

                                                                                                       Appendix C
                        U.S. Immigration and Customs Enforcement
 

                                Management Response to the
 

                                   Management Letter
 



                                                                Office afthe Chief Financial Officer

                                                                500 12'" Street, SW Stop 5702
                                                                Washlnglon, DC 20536-5702

                                                                u.s. Immigratioo
                                                                and Customs
                                                                Enforcement



                                    February 24, 20 II


MEMORANDUM FOR:              Anne L. Richards
                             Assistant Inspector General for Audits
                             ~eo~ln~~
                             IIa~~e0at-'<
FROM:




SUBJECT:
                    f        Chief Financial Officer
                             U.S. Immigration and Cnstoms Enforcement

                             Response to Draft Report" U.S Immigrations and Customs Enforcement's
                             Management Leller for FY 2010 DHS Consolidated Financial Statement
                             Audit. "
On behalf of U. S. Immigration and Customs Enforcement (ICE), I am responding to the draft report
cited above.

ICE personnel have reviewed all 13 Financial Management Comments (FMC) contained in the report.
We concur with the comments and recommendations and are in the process of implementing corrective
actions required to remediate these findings.

Should you have any questions or concerns, please contact Lois Jarvis, Deputy Director for the ICE
CFO Office of Assurance and Compliance at (202) 732-6240 or bye-mail at Lois.Jarvis@dhs.gov.




                                                 10
 

Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
